Report No. DODIG-2012-040             January 19, 2012




     Independent Auditor's Report on the Attestation of
       the Existence, Completeness, and Rights of the
      Department of the Navy's Ships and Submarines,
                Trident Missiles, and Satellites
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
APSR                          Accountable Property System of Record
                                 INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500




                                                                          January 19,2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                 (COMPTROLLER)/CHIEF FINANCIAL OFFICER
               ASSISTANT SECRETARY OF THE NAVY (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE

SUBJECT: Independent Auditor's Report on the Attestation of the Existence,
         Completeness, and Rights of the Department of the Navy's Ships and
         Submarines, Trident Missiles, and Satellites (Report No. DODIG-20l2-040)

We are providing this report for information and use. No written response to this report
was required. Therefore, we are publishing this report in final fOlID.

We appreciate the courtesies extended to the staff. Please direct questions to
me at (703) 604-8905 (DSN 644-8905),


                                          J~]~
                                        P     imy   J, Frontz, CPA
                                              Principal Assistant Inspector General
                                                for Auditing
                                INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500




                                                                          January 19, 2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                 (COMPTROLLER)/CHIEF FINANCIAL OFFICER
               ASSISTANT SECRETARY OF THE NAVY (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE

SUBJECT: Independent Auditor’s Report on the Attestation of the Existence,
         Completeness, and Rights of the Department of the Navy’s Ships and
         Submarines, Trident Missiles, and Satellites (Report No. DODIG-2012-040)

We reviewed management’s assertion of audit readiness for the existence, completeness,
and rights of the Department of the Navy’s (Navy’s) mission-critical assets (ships and
submarines, aircraft, Trident missiles, satellites, and ordnance) as of September 30, 2010.
As a result of our review of Navy’s assertion, we performed an attestation of the
existence, completeness, and rights of the Navy’s ships and submarines, Trident missiles,
and satellites as of March 31, 2011. Aircraft and ordnance were excluded from this
examination.

Navy management is responsible for its assertion of audit readiness. Our responsibility is
to express an opinion on the assertion based on our examination.

We conducted our examination in accordance with attestation standards established by
the American Institute of Certified Public Accountants and generally accepted
government auditing standards as stated in the Government Accountability Office,
“Government Accounting Standards.” Those standards require examining, on a test
basis, evidence supporting the Navy’s assertion of audit readiness of the existence,
completeness, and rights of its mission-critical assets and performing other procedures we
consider necessary in the circumstances. We believe that our examination provides a
reasonable basis for our opinion on management’s assertion.

In our opinion, the Navy’s assertion of audit readiness for the existence, completeness,
and rights of its ships and submarines, Trident missiles, and satellites as of March 31,
2011, is fairly stated in all material respects.

Internal Controls
Internal controls are important for safeguarding assets. Management designs internal
controls to provide reasonable assurance that unauthorized acquisition, use, or disposition
of assets will be prevented or detected and corrected in a timely manner. During our
examination, we identified several internal control issues. These internal control issues

                                             1
did not preclude us from reaching an opinion regarding Navy’s assertion. However,
management should take additional action to improve the internal controls to ensure the
sustainability of its processes in accounting for the existence, completeness, and rights of
its ships and submarines, Trident missiles, and satellites.

We identified the following internal control issues.

       x   The Navy’s process memorandum for ships and submarines did not comply
           with the DoD Fiscal Year 2010, “Financial Improvement and Audit Readiness
           Guidance,” May 15, 2010. Specifically, the memorandum did not include the
           necessary details, including clear narrative descriptions and process/system
           flows, to enable an independent reviewer to understand the operations used to
           account for the ships and submarines under review. For example:

               o The initial universe provided by Navy personnel was incorrect. The
                 Navy could not identify what ships and submarines were part of the
                 universe. As a result, the audit team’s ability to obtain an accurate and
                 timely universe was delayed.

               o The process memorandum did not include a list of the commands or
                 entities responsible for each ship or submarine class. Without this
                 information, it took auditors multiple attempts over several weeks to
                 identify the correct points of contact for certain ships and submarines.
                 Consequently, the audit team was delayed in obtaining supporting
                 documentation to prove existence.

       x   The Navy did not produce process memoranda for Trident missiles and
           satellites in accordance with the DoD Fiscal Year 2010, “Financial
           Improvement and Audit Readiness Guidance,” May 15, 2010. Process
           memoranda are important to the sustainability of assets and to understanding
           how assets are acquired, used, and reported throughout their life cycle.
           Without this information, the audit team encountered problems obtaining the
           universe of Trident missiles. Although the universe of satellites was limited
           because of the technical nature of how they are managed, specific process
           flows are necessary. The Navy needs to document these actions for future
           program sustainability and improve internal controls over financial reporting.

       x   The Navy did not have adequate internal and systems controls over the ships
           and submarines accountable property system of record (APSR), the Naval
           Vessel Register. Specifically, the Naval Vessel Register did not:

               o   prevent account users from making unauthorized changes;
               o   segregate duties;
               o   require passwords in accordance with DoD regulations; or
               o   keep a history of changes made to the data.


                                             2
           These controls help to ensure data integrity over financial infonnation.

       •   The Navy did not establish an APSR for the Trident missiles and satellites, as
           required by DoD Instmction 5000.64 "Accountability and Management of
           DoD Equipment and Other Accountable Property" November 2, 2006, which
           was in effect as of March 31, 2011. The APSR should provide a complete
           trail of all transactions suitable for audit. This would also document that our
           military forces are properly equipped. Without an APSR, it is difficult to
           determine whether assets physically exist and whether the universe of assets
           in the accounting system is complete.

Improving these internal control processes will help the Navy repeat and sustain the
processes during future financial statement examinations.

We provided an advanced copy of this report to the Office of the Assistant Secretary of
the Navy (Financial Management and Comptroller), who provided comments. We
considered the comments and made changes where appropriate. This repOlt is intended
solely for the infonnation and use ofthe Under Secretary of Defense (Comptroller)/Chief
Financial Officer, DoD; the Assistant Secretary of the Navy (Financial Management and
Comptroller); and the Director, Defense Finance and Accounting Service, and is not
intended to be and should not be used by anyone else. However, this report is a matter of
public record, and its distribution is not limited.

                                          J~!Juvt-
                                      ;c./~   Amy J. Frontz, CPA
                                              Principal Assistant Inspector General
                                               for Auditing




                                              3
